<html>
<title> - NOMINATIONS OF SHERRY M. TRAFFORD AND STEVEN M. WELLNER</title>
<body><pre>[Senate Hearing 113-442]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-442

 
        NOMINATIONS OF SHERRY M. TRAFFORD AND STEVEN M. WELLNER
=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON

               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             SECOND SESSION

                               __________

        NOMINATIONS OF SHERRY M. TRAFFORD AND STEVEN M. WELLNER

   TO BE ASSOCIATE JUDGES, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                               __________

                             MARCH 27, 2014

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the

        Committee on Homeland Security and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
89-522                   WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota         JEFF CHIESA, New Jersey

               John P. Kilvington, Acting Staff Director
            Deirdre G. Armstrong, Professional Staff Member
    Jason A. Smith, Counsel, Subcommittee on Emergency Management, 
        Intergovernmental Affairs, and the District of Columbia
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
               Andrew C. Dockham, Minority Chief Counsel
                 Sarah Beth Groshart, Minority Counsel
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Begich...............................................     1

                               WITNESSES
                        Thursday, March 27, 2014

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia...........................................     2
Sherry M. Trafford, to be Associate Judge, Superior Court of the 
  District of Columbia
    Testimony....................................................     4
    Prepared statement...........................................    13
    Biographical and financial information.......................    15
Steven M. Wellner, to be Associate Judge, Superior Court of the 
  District of Columbia
    Testimony....................................................     5
    Prepared statement...........................................    14
    Biographical and financial information.......................    34


        NOMINATIONS OF SHERRY M. TRAFFORD AND STEVEN M. WELLNER

                              ----------                              


                        THURSDAY, MARCH 27, 2014

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:43 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mark Begich, 
presiding.
    Present: Senator Begich.

              OPENING STATEMENT OF SENATOR BEGICH

    Senator Begich. Thank you all very much for being here this 
afternoon. Let me first call this hearing to order, and again, 
I appreciate everyone being here.
    Congresswoman, always good to see you. I will have a few 
comments and then I will turn to you for introduction, but let 
me say it is always a pleasure to have you here. You have 
become a regular, or we are having lots of meetings. I am not 
sure which it is. Hopefully, they are meetings with results, 
and so I want to thank you for being here.
    Today, the Homeland Security and Governmental Affairs 
Committee meets to consider the nominations of Sherry Moore 
Trafford and Steven Wellner to be Associate Judges of the 
District of Columbia Superior Court, and again, welcome to both 
of you for being here.
    I am also pleased, as I mentioned, to introduce and have 
here once again Congresswoman Norton. As always, we appreciate 
your representation for this District, but also to be here this 
afternoon.
    I also would like to extend a warm welcome, because I know 
you cannot do these jobs without your family and friends, but 
your family, especially, because of the commitment you take on 
with these new positions that require at times unusual hours 
and stress in the family. So, again, to your families, thank 
you for being here.
    This Committee consistently receives excellent candidates 
nominated by the President and recommended by the nonpartisan 
District of Columbia Judicial Nominations Commission. This 
process is critical to ensuring that we have candidates who are 
experienced and have the appropriate temperament for this 
position.
    As we know, judges have critically important duties in our 
society. Judges must uphold and interpret the law, resolve 
disputes equitably, and protect the rights and liberties of our 
citizens. If confirmed, I trust you both will fulfill these 
responsibilities with respect, character, and deference 
befitting the court.
    As many of you already know, Ms. Trafford currently serves 
as a Staff Attorney in the Mental Health Division of the Public 
Defender Service. For many years, she has devoted her time and 
effort to ensuring that some of our society's most vulnerable 
have adequate representation during important proceedings. For 
the past 10 years, Ms. Trafford has represented individuals in 
mental health proceedings, largely dealing with civil 
commitments. She first joined the Public Defenders Service in 
1999, helping individuals facing juvenile delinquency charges 
receive the social service benefits they needed.
    Ms. Trafford, I have reviewed your biographical 
questionnaire and look forward to discussing your 
qualifications to serve as an Associate Judge for the Superior 
Court for the District of Columbia.
    Judge Wellner currently serves as Principal Administrative 
Law Judge for the Unemployment Insurance Jurisdiction of the 
District of Columbia, a position he has held since 2011. Judge 
Wellner was elevated to the bench in 2006 and has served with 
distinction since then. During his service, he has adjudicated 
more than 2,700 contested cases in a wide variety of areas, 
from unemployment eligibility to petitions and tax appeals. The 
bulk of his career has been in private practice at the 
distinguished firm of Kirkland and Ellis, where he became a 
partner in 1993. His practice focused on environmental 
counseling, handling diverse issues from permitting to 
hazardous materials management and corporate transactions. For 
9 years, he directed his firm's pro bono program, ensuring 
access to justice for those who otherwise could not afford it.
    Judge Wellner, I have also reviewed your biographical 
questionnaire and again am looking forward to discussing your 
nomination to become an Associate Judge for the Superior Court 
of the District of Columbia.
    Mr. Wellner. Thank you.
    Senator Begich. You are welcome.
    I look forward, again, to the testimony from both of you, 
and before I do that, let me turn to Congresswoman Norton. 
Again, as always, thank you for joining our Committee here, and 
once again, we have done it. We are close to on time. There are 
always votes--I do not know what it is. It is, like, 95 percent 
of the time when we have this hearing, somehow, we are having 
votes. But, we are honored to have you here. Please, if you 
have a few remarks, and then I will turn to the two nominees.

           STATEMENT OF THE HONORABLE ELEANOR HOLMES 
  NORTON, A DELEGATE IN CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Senator Begich. Actually, 
I will give but a thumbnail sketch since you have laid out, I 
think quite well, the qualifications of these two quite able 
and experienced candidates to be Associate Judges of our D.C. 
Superior Court. May I thank you always and especially for the 
attention you have given to the District of Columbia. I know 
how busy you are, and here is some business that comes at you 
from the District of Columbia, not alone these judgeships, but 
the other very important business that is before you.
    Sherry Trafford, as you indicate, has served as a Staff 
Attorney for the Mental Health Division, and before that for 
the Civil Legal Services Division. This has given you a wide 
breadth of experience in dealing with many cases of the kind 
that she will get if she is confirmed. She served as Staff 
Attorney before that at the Bazelon Center for Mental Health. 
She is a graduate of Indiana University in Economics with 
honors and has her law degree from Yale Law School. She clerked 
for the Honorable William B. Bryant of the United States 
District Court for whom our Courthouse Annex is named.
    Steven Wellner has been twice appointed an Administrative 
Law Judge (ALJ) and now is the Principal Administrative Law 
Judge with a team of 10 Administrative Law Judges serving under 
him. He was a partner in a distinguished law firm with a 
practice that was centered on counseling corporations and trade 
associations and other clients in corporate transactions. 
Before that, he worked for the U.S. Environmental Protection 
Agency (EPA) as an attorney advisor. Mr. Wellner is a graduate 
with high distinction from the University of Virginia and 
received his law degree from the University of Michigan.
    Mr. Chairman, it is with great pleasure that I submit these 
two candidates to you with every confidence that they would 
serve very well and with the highest distinction on our 
Superior Court for the District of Columbia.
    Senator Begich. Thank you very much, Congresswoman, and I 
know you would not be here otherwise. I appreciate you being 
here and introducing these two nominees to us. Thank you very 
much.
    We have Committee rules that require that the witnesses at 
nominations hearings give their testimony under oath, so if I 
can have both nominees stand, if you do not mind, Ms. Trafford 
and Mr. Wellner, and would you both please raise your right 
hand.
    Do you swear or affirm the testimony you are about to give 
to this Committee is the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Ms. Trafford. I do.
    Mr. Wellner. I do.
    Senator Begich. Great. Please have a seat. Thank you very 
much.
    I also have three required questions which I would like to 
ask you both, and I will ask the question and then I will start 
with Ms. Trafford and then ask for each answer from both of 
you.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Ms. Trafford. No, sir.
    Mr. Wellner. No, sir.
    Senator Begich. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have both been nominated?
    Ms. Trafford. No.
    Mr. Wellner. No.
    Senator Begich. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from serving the 
full term for the office to which you have been nominated?
    Ms. Trafford. No.
    Mr. Wellner. No.
    Senator Begich. Very good. Again, thank you very much. Let 
us go ahead and start with your testimony, and Ms. Trafford, we 
will start with you and then we will go to Mr. Wellner. Please.

    TESTIMONY OF SHERRY M. TRAFFORD,\1\ NOMINATED TO BE AN 
  ASSOCIATE JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Trafford. Thank you, Mr. Chairman and Members of the 
Committee. It is my honor to appear before you today as a 
nominee to be an Associate Judge of the Superior Court for the 
District of Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Trafford appears in the Appendix 
on page 13.
---------------------------------------------------------------------------
    I would like to thank the District of Columbia Judicial 
Nominations Commission and especially its Chair, Judge Emmet 
Sullivan, who is here today, for forwarding my name for 
consideration by the White House, and President Barack Obama 
for nominating me to serve on the Superior Court, and thank 
you, Representative Eleanor Holmes Norton, for introducing me 
this afternoon and for your service to the citizens of the 
District of Columbia.
    My daughter, Ann Elise Trafford, is a graduate of the 
District of Columbia Public Schools and she is now a student at 
the University of Wisconsin. She was not able to be here today 
for this hearing, but I am certain that she will get a full 
report later this evening. My mother, Ann Moore, and my 
brother, John Moore, traveled from Indiana to be here today. My 
brother followed in my father's footsteps as a public school 
teacher, and his spring break happened to coincide with this 
hearing, so I could not be more proud to have him and my mother 
here today. My father passed away 2\1/2\ years ago, but would 
have also been proud to be here, I know. My sister, Laura 
Sabatelli, is also a teacher, but more importantly, she manages 
a household of four children, three of whom are teenagers, and 
you can understand that she could not be here today. Members of 
my D.C. community who have made up my extended family here in 
this community are here today and I want to thank them, my 
former minister, John Wimberly, my role model and friend, 
Suzanne Wells, and my law school classmate and friend, Eric 
Angel, who continues to inspire me in his current work as the 
Director of the Legal Aid Society for the District of Columbia.
    I come from a family of public school teachers and was 
inspired to go into public service over many dinner-time 
conversations about how to best inspire young people to reach 
their best potential. I also had the good fortune to cross 
paths and work for several people whom I consider to be giants 
in the law. When I was an undergrad at Indiana University, I 
was a teaching assistant for Thomas Ehrlich, who was the first 
Director of the Legal Services Corporation. After law school, I 
had the extraordinary opportunity to work as a law clerk for 
Judge William Bryant, who, as Delegate Holmes Norton mentioned, 
his name now yields itself to our District of Columbia Federal 
Court Annex a few blocks away from here.
    Inspired by those mentors and many other colleagues, I have 
spent my legal career in public service here in the District of 
Columbia. For the past 15 years, I have been an attorney for 
the Public Defenders Service for the District of Columbia, 10 
of them working in the Mental Health Division. My work has 
provided me with a great appreciation for the vital role of 
Superior Court in the life of this city and the importance of 
having a judiciary that understands not only the law, but also 
how the law can impact the day-to-day lives of the citizens who 
appear before it.
    It would be my honor to serve the people of this city as an 
Associate Judge of the Superior Court, and I would strive to 
honor the legacy of the people who have taught me so much, my 
colleagues, supervisors, judges, opposing counsel, as well as 
countless individual clients over the years.
    I am happy to answer any questions that the Committee has.
    Senator Begich. Thank you very much. Mr. Wellner.

TESTIMONY OF STEVEN M. WELLNER,\1\ NOMINATED TO BE AN ASSOCIATE 
       JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. Wellner. Thank you, Mr. Chairman, Members of the 
Committee. Thank you for the opportunity to appear before you 
today as a nominee for Associate Judge of the Superior Court of 
the District of Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wellner appears in the Appendix 
on page 14.
---------------------------------------------------------------------------
    I would also like to thank the District of Columbia 
Judicial Nomination Commission and its Chair, Judge Sullivan, 
who is in the back, for recommending me to the White House, and 
President Barack Obama for nominating me. I sincerely 
appreciate, also, Congresswoman Norton's kind introduction, and 
I am grateful to the Committee Members and staff for their 
attention and courtesy throughout the confirmation process.
    I would like to introduce family members who are here with 
me today. My wife, Amy Saltzman, is behind me. My mother, 
Carole Wellner, my daughter, Rebecca Wellner, who is home from 
spring break, and my sister, Lisa Wack and her husband, Robert 
Wack. I also want to recognize friends and colleagues who are 
in attendance. My son, Jacob, was unable to make it back from 
the University of Michigan, but I know he would have enjoyed 
being here with us, too. I would not be here without the 
support and encouragement of everyone I have just mentioned.
    I have lived and worked in the District of Columbia for 
nearly 30 years. I have spent most of my career as a lawyer in 
private practice, but for the last 8 years, I have served as an 
Administrative Law Judge with the D.C. Office of Administrative 
Hearings. I enjoy the day-to-day work of being a judge. In my 
current position, I rule on motions, conduct evidentiary 
hearings, and issue written decisions, simple and complex, on a 
broad range of subject areas, most of which were entirely new 
to me when I first became an ALJ in 2006. I deal with litigants 
of varying degrees of sophistication, including many who are 
self-represented. As Principal Administrative Law Judge for 
Unemployment Appeals, I have successfully coordinated 
operations for a team that handles more than 2,000 contested 
cases a year and is subject to stringent Federal standards for 
timeliness and quality.
    For me, the job of a judge is a perfect mix of public 
interaction, intellectual challenge, variety, and logistics. My 
work as an Administrative Law Judge complements a very 
different experience I had earlier in my career as a law firm 
associate and partner. I left private practice for my current 
position in 2006 because I wanted to be more directly involved 
in public service and, in particular, efforts to improve access 
to justice in the District of Columbia.
    My work at the Office of Administrative Hearings has 
convinced me that being a judge is a good fit for my interests 
and my skills. It would be a privilege and an honor to continue 
my public service as an Associate Judge of the Superior Court.
    Thank you for considering my nomination. I look forward to 
answering any questions.
    Senator Begich. Thank you both very much. First off, you 
get extra credit because you did not consume your 5 minutes 
each. [Laughter.]
    No disrespect to lawyers, usually, they consume it all, so 
that means you will have efficient courts, I can feel it.
    Mr. Wellner. That is a good sign.
    Senator Begich. That is a good sign.
    I have a couple of questions, if I can, Mr. Wellner. I know 
you mentioned your accomplishments as an Administrative Law 
Judge. The one thing you listed was how you were able to 
decrease your case log and make it more efficient. I have a 
feeling--you only used 60 percent of your 5 minutes, so I can 
get a sense already what happened here.
    But, I am curious, what were you able to do there, and do 
you think that is something that can be transferrable to the 
Superior Court Judge system? As someone here in this position 
who sees a lot of folks both from homeland security and 
government services, but from the judicial end, is there 
something that you can translate over?
    I would be very curious, because it is always a concern we 
hear from people, that the backlog is increasing. I know in my 
home State, some of the courts have increased so much, the 
judges that dealt with civil issues are now taking on criminal 
issues because the criminal caseloads are just overloading and 
more are picking trial than settlement, so----
    Mr. Wellner. All right. Sure. I think the strategies that 
we used in our context could translate to any other context, 
judicial or outside a judicial context. I think the Superior 
Court is currently, in fact, developing and implementing 
strategies to do just that. I think it is a matter of 
identifying and articulating goals, getting appropriate buy-in 
from everybody who is involved in executing whatever the plan 
is and participating in developing the plan. I think you have 
to have a way to measure steps toward the goal, as we did. It 
is important to work with clean data, to have some good way of 
calculating what the steps are toward the goal.
    I think while we were doing that, and I think this also 
would translate, you have to look for new and innovative ways 
to do things more efficiently, in shorter time. And so we did 
that, and I think that is directly translatable to what could 
be done in Superior Court, and as I said, I think they are 
doing that.
    Senator Begich. What do you think in the Superior Court--
looking from the outside into it, is probably one of the bigger 
challenges that the Superior Court has right now? And I am not 
here to profess I know what those are. I am just curious from 
your perspective what they might be.
    Mr. Wellner. Well, I think scheduling always is, and I 
think that is, again, one of the issues that the Superior Court 
has dealt with directly over the past few years. How can you do 
a better job of predicting how long particular cases are going 
to take? When do you tell litigants to come in? When do you 
tell jurors to come in? And I think that is very tricky, but I 
think that can be done with better collection of information, 
and ultimately, you can predict better what those timings are. 
I think that is the biggest challenge, though.
    Senator Begich. Let me ask you this. I say it is my last 
question, but I think it is, and I will ask probably both of 
you this same question. So, you have, let us say, you have a 
litigant confronting you. They are not using an attorney, and 
why I say this, I have been one of those that go in front of 
the courts. I had to do a lot of forcible entry and detainers 
(FEDs) in Alaska for buildings that I owned and operated. I 
give no disrespect to the attorneys, but I did not want to pay 
the fee, and so I represented myself, very successfully, I will 
say, but---- [Laughter.]
    Some may come in front of you. When I would go in front of 
the judge and the folks that I was having to deal with, they 
should have representation. I am not there to tell them they 
should, but I watched sometimes how a judge handled that 
situation. I will ask both of you this same question, because I 
think it is an important question, because you will have people 
like that, they are in front of you, and you know as a judge 
they need some representation, but you cannot say it, how would 
you handle that?
    Mr. Wellner. Well, I mean, if they really need 
representation, you could suggest that.
    Senator Begich. Right.
    Mr. Wellner. If you have----
    Senator Begich. You cannot dictate it to them.
    Mr. Wellner. Right----
    Senator Begich. That is what I should have said.
    Mr. Wellner. If they have decided they want to proceed 
without representation, or it does not seem like there is 
representation available, which certainly happens, then I think 
there are well-worn strategies that can be used to deal with 
that. I think it is the judge's responsibility to make sure 
that everything is explained clearly, that plain language is 
used not just by the judge, but by everybody, that the 
procedures are explained ahead of time very clearly, very 
carefully. The judge also has the ability during the--if it is 
a hearing where there is a taking of evidence--to ask certain 
kinds of neutral questions.
    Senator Begich. Yes.
    Mr. Wellner. The judge has the ability to change the order 
in which evidence comes in to make it fit what is actually 
happening in real life. I think it is the judge's 
responsibility to then explain what happens if a decision is 
made right then and there. It is the judge's responsibility to 
explain that clearly and carefully, and then explain whatever 
the next steps are. So, I think it is a matter of using plain 
English, explaining things completely and carefully, things 
that benefit not just the litigant, but if there are members of 
the public in the room, they can follow better. It is all of 
these things, I think, that benefit not just the immediate 
parties, but everybody in the process.
    Senator Begich. Very good. Ms. Trafford.
    Ms. Trafford. Thank you. I will add to the excellent 
suggestions that Judge Wellner just made by saying that my 
career has been devoted to working with individuals, and lots 
of times individuals who may not have the level of education or 
sophistication that attorneys bring into a courthouse. And so I 
do feel that one of the resources that I can bring to the court 
is an understanding of how to listen and the importance of 
listening to what people are trying to say. The challenge a 
judge faces in these circumstances is finding the balance 
between listening to what a person has to say and making sure 
that the proceedings are moving along, that the matter that the 
court is to resolve, or that is brought to the court, is 
actually what the focus of the proceedings is rather than 
issues that cannot really be resolved in the court.
    I think that the other piece of insight that I would offer 
is that people's experience with the court often depends on how 
they are treated, whether they feel that they have been treated 
with respect, that they have had a fair opportunity to present 
their issues or their arguments, and to have explained to them 
what is going on so that they understand the proceedings. 
Oftentimes, the satisfaction with the judicial process and the 
interaction with the court depends less, in fact, on the 
outcome than on people's feelings about how they were treated 
during that process.
    And I think that it is incumbent on a judge to make sure 
that individuals are all treated with fairness, that they feel 
that they have had an opportunity to make their case, to have 
their day in court, also to know that the judicial officers and 
the members of the court have heard what they are trying to say 
and have effectively tried to explain the decision that is made 
during the course of the proceedings.
    Senator Begich. Very good. I have a couple questions. One, 
you started, and it leads me to my next question, but before I 
do that, I want to say that I was listening as you were 
describing, as your testimony submitted, also, on your 
background with your family of teachers.
    Ms. Trafford. Yes.
    Senator Begich. My parents were teachers. My two sisters 
are teachers. My sister-in-law is a teacher. My two brothers 
worked in the school system. So, the public school system is an 
incredible opportunity for all of us----
    Ms. Trafford. It is good work.
    Senator Begich [continuing]. And it gives you--and maybe 
public educators instill in all of us at some point in our life 
that public service is part of the equation of what makes this 
country what it is, so I was just noting that, of your 
education background.
    You started saying, and I want to just elaborate a little 
bit more--what is your unique experience, do you think, that 
really qualifies you for this position? You mentioned one I 
thought was interesting is your listening skills. I will say 
that in schools today, they spend a lot of time on 
communication skills, but they lack education on listening 
skills. It is actually very interesting. When you do 
communication, the majority of what people should be doing is 
listening, not speaking, but we teach speaking and less 
listening. It is the most amazing thing. I have always been 
astounded by it.
    But you mentioned that, and I thought that was interesting. 
But what other of those unique skills that you think you bring 
into this role that you believe would be very beneficial for 
you, or for the court?
    Ms. Trafford. Sure. Thank you. In the course of my work 
over the last 15 years in D.C. Superior Court, working for 
Public Defender Service, first as a Civil Legal Services 
Attorney and then in the Mental Health Division, I have been 
fortunate to appear in almost every division of Superior Court. 
I have a broad experience with that courthouse as my place of 
work and I think that that is a valuable experience that I can 
bring to the bench, to this position.
    I think, in addition, I have been in every part of this 
city in representing my clients. I have visited them in every 
ward of this city, in every type of situation or circumstances. 
I have visited individuals in shelters, in apartments, in group 
homes, in hospitals. I have a very broad knowledge of what it 
is like for people living in this city with their feet on the 
ground in the city and the day-to-day experiences that they 
have.
    In addition, in my work in the Mental Health Division, I 
had the experience of working on a very regular basis with 
experts. Those experts in my context were psychiatric experts, 
psychologists, and psychiatrists. But I also have a good 
appreciation of the role of experts in court cases and in 
helping inform the judicial process and I am not intimidated by 
experts, which I think sometimes could be a concern. I can 
recognize the role of a judicial officer as compared to the 
witnesses who appear before the court and I can bring that 
knowledge and experience to this position.
    Senator Begich. Very good. I just have two questions left 
for both of you, and these are kind of general ones I usually 
ask nominees and we will continue on this line. One is, what do 
you think will be the top legal issue you might end up dealing 
with as a judge, and we will go from one to one, and you may 
not know that answer, but I am just curious what people are 
thinking, whoever wants to answer first.
    Mr. Wellner. The question is the top--I did not hear the--
--
    Senator Begich. The top legal issue you might find yourself 
embroiled in. Maybe it is nothing major. Maybe it is just 
normal course of business.
    Ms. Trafford. I think that the answer to that depends a lot 
on the calendar to which either of us would be appointed, and 
we do not know that in advance. And with respect to the 
question, I think that one of the jobs of a judicial officer is 
to treat every case as if it could be the most important case 
that appears before the judge at any time, because certainly 
for the litigants, that often is the case.
    Senator Begich. Good point.
    Ms. Trafford. I think this city is going through remarkable 
changes in a lot of different areas in terms of the growth of 
the city and the developments, and so it is hard to predict 
what may come in front of the court in coming years.
    Mr. Wellner. I agree completely with Ms. Trafford. I do not 
have much to add. I mean, I would say that from my own 
experience over the last 8 years, it would be hard for me to 
identify, even having been through it, what the top issue is, 
the top legal issue that I have dealt with. It does vary from 
day to day and week to week. Whatever issue I am working on is 
at that moment the one that I care most about and the one that 
I want to research and get to the bottom of. So, I think that 
is otherwise very hard to predict what is going to come up over 
the next few years.
    Senator Begich. Let me ask you my final question, which 
kind of plays off that a little bit, and that is: as you are 
part of the judicial system, you will have rotations through 
calendars and so forth. What are you looking forward to? What 
are you not looking forward to? How is that? [Laughter.]
    Mr. Wellner. That is fine----
    Senator Begich. And we will start with you, because---- 
[Laughter.]
    Mr. Wellner. There is nothing I am not looking forward to, 
and----
    Senator Begich. I can tell you, in my job, I can give you a 
list. [Laughter.]
    Mr. Wellner. I think there are rotations that will be 
appealing for different reasons. There are rotations that will 
be appealing and interesting because they will be comfortable 
fits with what I have done in the past. There is actually some 
overlap in jurisdiction between Superior Court and the Office 
of Administrative Hearings----
    Senator Begich. Right.
    Mr. Wellner [continuing]. Not a lot----
    Senator Begich. Not a lot.
    Mr. Wellner [continuing]. But there is some overlap in 
rental housing and in tax, and I think those rotations will be 
appealing because there will be a comfort level and it will be 
interesting to see the same issues from a slightly different 
perspective.
    There are rotations where the law will be new to me, and 
that is appealing for the same reason that I found my current 
job appealing when I left private practice, because for--I 
think many lawyers feel this way--it is very exciting to bounce 
from one area of law to another and have to learn everything, 
if not from scratch, from----
    Senator Begich. It becomes a challenge.
    Mr. Wellner. It is, and I think some people love that, and 
I think most people who choose to apply for a trial court job 
would say that they love that. So, I think that would seem very 
appealing.
    So, I think it will vary, but there is nothing that I would 
dread and I think I will look for the appeal in whatever 
rotation I land in.
    Senator Begich. Fantastic. Ms. Trafford.
    Ms. Trafford. Again, I think we are in substantial 
agreement here. Judge Wellner pointed out that the challenge of 
learning new material is something that he looks forward to, 
and it is certainly something that drew me to be interested in 
wanting to pursue a nomination to Superior Court. I am excited 
about learning different subject matter, maybe varying over a 
number of years the calendar that I can be on and the types of 
cases that I will get to decide.
    I am looking forward to, also, a changing mix of doing 
research and writing and being in a courtroom on--some of the 
calendars in Superior Court are very high-volume, many pro se 
litigants, as you have pointed out already. I look forward to 
the challenge and the variation in those experiences and 
challenging myself to figure out how to manage that and engage 
in the intellectual rigor, as well as maintaining a focus on 
the number one job of providing fair and accurate and just 
hearings for the litigants who appear in front of the court.
    Senator Begich. Very good. Let me, if I can, I will close 
this hearing up, but before I do that, I know you introduced 
your family in your openings. Maybe you could introduce them 
again and have them stand up so I just can get a sense of who 
they are----
    Ms. Trafford. Sure.
    Senator Begich [continuing]. And maybe Ms. Trafford.
    Ms. Trafford. Sure, and I am going to stand, because I am 
sitting right in front of them otherwise.
    Senator Begich. OK. You are sitting in front of Mom.
    Ms. Trafford. Yes. My mother, Ann Moore, is here.
    Senator Begich. Nice to see you. Thank you.
    Ms. Trafford. And this is my brother, John Moore.
    Senator Begich. Very good.
    Ms. Trafford. They are here, both from Indiana.
    Senator Begich. Very good. Welcome. Thank you.
    Mr. Wellner. I will stand for the same reason. This is my 
Mom, Carole Wellner.
    Senator Begich. Good. Nice to meet you.
    Mr. Wellner. And my wife, Amy Saltzman.
    Senator Begich. Amy, good.
    Mr. Wellner. My sister, Lisa Wack.
    Senator Begich. Nice to see you.
    Mr. Wellner. My daughter, Rebecca Wellner.
    Senator Begich. Nice to see you.
    Mr. Wellner. And my brother-in-law, Robert Wack.
    Senator Begich. Fantastic. Thank you all again for being 
here.
    First, thank you both for being here. Thank you for your 
willingness, again, to, one, be nominated and go through the 
process, and to the families, again, I do not want to 
overemphasize it, but I think I should, and that is the 
commitment of a family to support someone in public service is 
a great deal, so thank you very much for doing that. And 
always, because I was raised by my mother, and so seeing two 
moms here, thank you. It is great to see you here.
    Again, let me close out this meeting, thank you for 
appearing in front of the Committee and I appreciate your 
candor and your willingness to answer the questions and put 
yourself forward in this manner.
    Both of our nominees have filed responses to biographical 
and financial questionnaires. Without objection, this 
information will be made part of the hearing record,\1\ with 
the exception of the financial data, which all are on file and 
available for public inspection in the Committee office.
---------------------------------------------------------------------------
    \1\ The biographical and financial questionnaires appear in the 
Appendix on page 15.
---------------------------------------------------------------------------
    Without objection, the record will be kept open until 5 
p.m. tomorrow for the submission of any written questions or 
statements for the record.
    Again, I want to thank you both, and at this time, the 
meeting is adjourned.
    Mr. Wellner. Thank you.
    Ms. Trafford. Thank you.

    [Whereupon, at 3:17 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre></body></html>
